 




    NATIONAL OCEANIC
    AND ATMOSPHERIC
    ADMINISTRATION
    Follow-up Review of
    NOAA Fisheries
    Enforcement Programs
    and Operations




    FINAL REPORT NO. OIG-12-017-I
    JANUARY 31, 2012



    U.S. Department of Commerce
    Office of Inspector General
    Office of Audit and Evaluation




    FOR PUBLIC RELEASE




 
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington, D.C. 20230



January 31, 20 12

MEMORANDUM FOR:               Dr. Jane Lubchenco
                              Under SecretaJof   Commerce
                               for Oceans and A osphe7J          G).·                .
FROM: 	                      Ann C. Eilers         /hN-- C.            ~~
                             Principal Assistant Inspector Gene I or Audit and Evaluation

SUBJECT: 	                   Follow-up Review of NOAA Fisheries Enforcement Programs and
                             Operations


This is our final report detailing the results of our follow-up review of NOAA fisheries
enforcement programs and operations. In response to our January 21 , 20 I0, report, Review of
NOAA Fisheries Enforcement Programs and Operations, NOAA identified activities planned or
already taken to improve its Office of Law Enforcement within the National Marine Fisheries
Service (NMFS), along with NOAA's Office of General Counsel, Enforcement Section. In
NOAA's response, public announcements, and press releases, we identified 47 action items.
We conducted a follow-up review to (I) provide an interim assessment of NOAA's corrective
actions, (2) determine the effectiveness of actions already taken, and (3) identify constructive
measures NOAA should consider going forward. We targeted the scope of our review to
NOAA's submitted action plan. This report presents the findings of our review, conducted
under the authority of the Inspector General Act of 1978, as amended, and Department
Organization Order I0-13, dated August 3 I, 2006.                                       ·

We found that NOAA has taken some positive steps in addressing challenges identified in our
reviews. As identified in appendix C, during the past two years NOAA has completed or
implemented a majority of the action items. NOAA has decided not to implement 2 action
items, leaving 13 of the action items to be completed.

We have received your January 18, 20 12, response to our draft report. Where appropriate, we
have modified this final report based on this response and discussions with NOAA subsequent
to the issuance of the draft report. The formal NOAA response is included as an appendix. The
final report will be posted on the OIG's website pursuant to section 8L of the Inspector
General Act of 1978, as amended.

We would like to express our thanks to your staff for the courtesies shown to us during our
review. Please direct any inquiries regarding this report to me at (202) 482-2754 and refer to
the report title in all correspondence.

Attachment
cc: 	   Monica Medina, Principal Deputy Undersecretary for Oceans and Atmosphere
        Samuel Rauch, Acting Assistant Administrator, NOAA Fisheries
        Paul Doremus, Deputy Assistant Administrator for Operations, NOAA Fisheries
        Lois Schiffer, General Counsel, NOAA
        Bruce Buckson, Director, Office of Law Enforcement, NMFS
        Mary B. Ward, Deputy General Counsel, NOAA
        Ben Friedman, Deputy General Counsel, NOAA
        Charles L. Green, Acting Assistant General Counsel, Enforcement Section,
         NOAA 

        Edward Horton, Chief Administrative Officer, NOAA 

        Mack Cato, Audit Liaison, NOAA 

                                           Report In Brief                                J AN U AR Y 3 1 , 2 0 1 2




Background                              NATIONAL OCEANIC AND ATMOSPHERIC
                                        ADMINISTRATION
This review follows up our January
21, 2010, Review of NOAA Fisheries
Enforcement Programs and Opera-
                                        Follow-up Review of NOAA Fisheries Enforcement
tions. The report found the follow-     Programs and Operations
ing: (1) NOAA senior leadership
and headquarters elements need          OIG-12-017-I
to exercise substantially greater
management and oversight of the         WHAT WE FOUND
agency’s regional enforcement
operations. (2) NOAA needs to           NOAA made progress in completing many key action plan items.
strengthen policy guidance, proce-      During the past two years, NOAA has completed or implemented a majority of
dures, and internal controls in its     the 47 action items, to include (1) requiring a high-level review of all proposed
enforcement operations, to address      charges for alleged violations and of all settlements by the General Counsel for
a common industry perception that       NOAA, (2) finalizing a rule to place the burden of justifying a particular civil
its civil penalty assessment process    penalty or sanction on NOAA rather than the respondent in cases before
is arbitrary and unfair.                Administrative Law judges, and (3) developing a new penalty policy.
(3) NOAA needs to reassess its
Office of Law Enforcement (OLE)         Regional and national priorities for OLE have not been finalized. OLE
workforce composition (presently        had deferred finalizing its enforcement priorities until it hired a permanent
90 percent criminal investigators),     director, who has been on board since September 4, 2011.
to determine if this criminal-
enforcement-oriented structure is       NOAA’s placement of the compliance liaison within OLE raises
the most effective for accomplish-      independence concerns. As part of its action plan, NOAA established a
ing its primarily regulatory mission.   compliance liaison in OLE’s Northeast office. However, the liaison reports
                                        directly to the Northeast office’s Special Agent in Charge, which may foster the
In response, NOAA identified activ-     appearance that the position’s independence may be impaired.
ities planned or already taken to
improve its Office of Law Enforce-      NOAA’s workforce analysis is one year behind schedule. As of
ment, along with its Office of the      December 2011, NOAA had not begun the implementation phase of its
General Counsel Enforcement             workforce analysis, which was scheduled to begin October 2010.
Section. In a February 3, 2010,
memo, a March 18, 2010, response,       Enforcement case management system data integrity issues have not
and several public announcements,       been resolved. OLE and GCEL have not fully addressed data integrity issues
NOAA identified 47 immediate and        within and between their two case management systems: JustWare and the Law
long-term activities to address OIG     Enforcement Accessible Database System.
findings and recommendations
                                        OLE and Enforcement Section policies and procedures manuals need
Why We Did This Review                  to include a consistent method for handling prior violation
                                        information. Neither manual provides a method for documenting, storing, or
We conducted this review to (1)
provide an interim assessment of        obtaining prior violation information, an important factor when deciding a
NOAA’s corrective actions, (2) de-      penalty assessment or sanction.
termine the effectiveness of actions    Enforcement Section participation in Fishery Management Council
already taken, and (3) identify con-
                                        Meetings has been limited and inconsistent. NOAA had planned to
structive measures NOAA should
consider going forward. We targeted     increase communications with the Fishery Management Council by ensuring
the scope of our review to the          availability of Enforcement section attorneys at meetings. However, participation
NOAA action plan.                       has been limited in two regions.
                                        E-hotline and “Complaints and Compliments” web page effectiveness
                                        is uncertain. Having different methods of submitting complaints of enforcement
                                        improprieties may be confusing for complainants.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                    OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Results .................................................................................................................................................................2
 
    I. 	     NOAA Made Progress in Completing Many Key Action Plan Items ......................................2
 
    II. 	 Regional and National Priorities for OLE Have Not Been Finalized.......................................2
 
    III. 	 NOAA’s Placement of the Compliance Liaison Within OLE Raises Independence 

           Concerns ...............................................................................................................................................3
 
    IV. 	 NOAA’s Workforce Analysis Is One Year Behind Schedule ....................................................3
 
    V. 	 Enforcement Case Management System Data Integrity Issues Have Not Been 

         Resolved.................................................................................................................................................4
 
    VI. 	 OLE and Enforcement Section Policies and Procedures Manuals Need to Include 

          a Consistent Method for Handling Prior Violation Information ...............................................5
 
    VII. 	OLE Staff Consistently Attend Fishery Management Council Meetings; 

          Enforcement Section Participation Has Been Limited and Inconsistent..................................6
 
    VIII. E-Hotline and ‘Complaints and Compliments’ Web Page Effectiveness Is Uncertain ..........6
 
    Conclusion .....................................................................................................................................................7
 
Summary of Department and OIG Comments .........................................................................................8
 
Appendix A: Objectives, Scope, and Methodology ...................................................................................9
 
Appendix B: January 2010 Recommendations ........................................................................................ 10
 
Appendix C: NOAA Action Items............................................................................................................. 11
 
Appendix D: Response to OIG’s Draft Report ...................................................................................... 14
 




 

 



                                                                                                                       COVER: Detail of fisheries pediment, 
                                                                                                              U.S. Department of Commerce headquarters,
 
                                                                                                                      by sculptor James Earle Fraser, 1934
 

                                                                                               

 


FINAL REPORT
  DEPARTMENT OF COMMERCE
U.S.                                                              OFFICE OF INSPECTOR GENERAL


Introduction 

Since the beginning of fiscal year 2010, OIG has issued three public reports on the National
Oceanic and Atmospheric Administration’s (NOAA’s) fisheries enforcement efforts. This
review follows up on our January 21, 2010, Review of NOAA Fisheries Enforcement Programs and
Operations, which found that NOAA senior leadership and headquarters elements need to
exercise substantially greater management and oversight of the agency’s regional enforcement
operations; NOAA needs to strengthen policy guidance, procedures, and internal controls in its
enforcement operations to address a common industry perception that its civil penalty
assessment process is arbitrary and unfair; and NOAA needs to reassess its Office of Law
Enforcement (OLE) workforce composition (presently 90 percent criminal investigators), to
determine if this criminal-enforcement-oriented structure is the most effective for
accomplishing its primarily regulatory mission. The five recommendations in the January 2010
report are included in appendix B.

In its memo of February 3, 2010, its response of March 18, 2010, and several announcements,
NOAA itemized immediate and long-term actions to address OIG findings and
recommendations. A complete list of all related NOAA action items is in appendix C. With the
understanding that some efforts were still being implemented, we conducted an interim
assessment to determine NOAA’s progress through October 2011.

We found that NOAA has taken some positive steps in addressing challenges identified in our
reviews. As identified in appendix C, during the past two years NOAA has completed most its
planned action items. We identified various others that have not been completed and two that
NOAA has decided not to implement.

 




FINAL REPORT                                                                                   1
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


Results 

I. NOAA Made Progress in Completing Many Key Action Plan Items

Significantly, and to its credit, NOAA has (a) required a high-level review of all proposed
charges for alleged violations and of all settlements by the General Counsel for NOAA; (b)
finalized a rule to place the burden of justifying a particular civil penalty or sanction on NOAA
rather than the respondent in cases before Administrative Law Judges; and (c) developed a new
penalty policy, including a revision of the penalty and permit sanction schedules. Also, beginning
on March 16, 2010, NOAA’s Office of General Counsel, Enforcement Section (Enforcement
Section) adopted a policy requiring consistent documentation on standardized case assessment
forms of case facts, charging decisions, and proposed civil penalty amounts. The Enforcement
Section also implemented a policy to have all cases reviewed by NOAA’s Deputy General
Counsel or General Counsel. We reviewed all 196 cases processed since the policy went into
effect through March 25, 2011, and verified that Enforcement Section management has
instituted and is utilizing a process that clearly documents attorney notes and higher-level
reviews of the facts and alleged offenses.

The Enforcement Section also developed a comprehensive policy and procedures manual and
trained staff on those procedures during the week of March 28, 2011. The manual provides
operational and procedural consistency nationwide and is a positive step toward addressing the
perception that Enforcement Section attorneys operate without regard to process. However,
as discussed on p. 5, the Enforcement Section needs to establish guidelines on how it
documents and retrieves prior history data on alleged violators of fishing regulations.

Before we issued our January 2010 report, the Enforcement Section did not have a national
penalty policy. Instead, the Enforcement Section gave each attorney significant discretion in
setting penalties. In response to our recommendations, the Enforcement Section attempted to
simplify the penalty setting process by establishing one penalty permit sanction matrix for each
major statute that NOAA enforces, with narrower penalty and permit sanction ranges to be
applied nationally.

II. Regional and National Priorities for OLE Have Not Been Finalized

Previously, NOAA established OLE priorities at the regional level, contributing to the lack of
oversight from headquarters. As of November 2011, OLE has drafted regional and national
enforcement priorities based on recommendations from participants at its fisheries
enforcement summit, Fishery Management Councils, interstate fishery commissions,
nongovernment organizations, internal staff, and other NOAA offices. However, OLE has yet to
finalize its regional and national enforcement priorities. During the OIG review, NOAA
informed us that OLE had deferred finalizing its enforcement priorities until it hired a
permanent director, who has been on board since September 4, 2011.




FINAL REPORT                                                                                       2
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL


III. NOAA’s Placement of the Compliance Liaison Within OLE Raises
    Independence Concerns

As part of its action plan, NOAA established a permanent “compliance liaison,” a position
piloted in OLE’s Northeast office. The compliance liaison is expected to interpret laws,
regulations, and policies; conduct outreach activities; and troubleshoot emerging industry
issues. NOAA management decided to have the compliance liaison report directly to the
Northeast office’s Special Agent in Charge. However, having the compliance liaison report
directly to an official within the OLE field office fosters the appearance that the position’s
independence may be impaired.

OIG found a common perception among fishing stakeholders that complaints about
enforcement brought to the compliance liaison may result in retaliation due to NOAA’s
established reporting structure. Because of the historically contentious relationship between
the regulated fishing industry and OLE in the Northeast, NOAA should consider that members
of the fishing community may not readily reach out to an OLE liaison.

IV. NOAA’s Workforce Analysis Is One Year Behind Schedule

In response to our January 2010 report, the Under Secretary of Commerce for Oceans and
Atmosphere ordered a hiring freeze of criminal investigators until the National Marine Fisheries
Service (NMFS) completed an internal workforce analysis. In the report we recommended that
NOAA reassess OLE’s workforce composition, which was approximately 90 percent criminal
investigators, to determine whether the ratio of uniformed enforcement officers/inspectors to
criminal investigators was most effective for accomplishing its mission. The hiring freeze for
criminal investigators was still in effect as of December 2011, although enforcement officers
have been hired.

OLE’s workforce analysis approach consists of short- and long-term actions. The short-term
actions are in three phases: analysis, recommendation, and implementation. The long-term
actions have three steps: (1) determine the future NOAA mission requirements for OLE;
(2) identify the competencies needed to meet OLE’s future mission; and (3) develop a long-
term— 1 to 2 years—workforce plan. At the time of our review, NOAA had not begun
implementing its workforce analysis plan, which was scheduled to begin October 2010.

In a February 2011 memorandum, NOAA’s Office of Workforce Management recommended
that OLE (1) consider external factors and business drivers, (2) determine how much emphasis
to place on ensuring compliance versus investigating noncompliance, and (3) consider acquiring
staff from other occupational series as an alternate staffing scenario. OLE and management are
currently reviewing staffing scenarios.

Based on our review of its draft analysis, it appears that NOAA has considered the roles of the
U.S. Coast Guard, joint enforcement agreements at the state and local level, complexity of
violations, and difficulty in obtaining evidence to prove violations. NOAA plans to seek a third-
party review of its workforce analysis plan prior to implementation.



FINAL REPORT                                                                                        3
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


V. Enforcement Case Management System Data Integrity Issues Have Not Been
   Resolved

On April 1, 2011, in response to the OIG report, the Enforcement Section replaced the
Enforcement Management Information System (EMIS) database with JustWare, a web-based,
commercial, off-the-shelf case-management system. The Enforcement Section demonstrated
JustWare’s case-tracking capabilities for us as well as its ability to import data from its legacy
EMIS. NOAA, however, did not address necessary enhancements (discussed below) to OLE’s
Law Enforcement Accessible Database System (LEADS), identified as inadequate in the previous
review.

OLE and the Enforcement Section have made initial attempts to address data integrity issues by
configuring LEADS to send case file information to JustWare. The electronic sharing of
information between the two systems, however, is currently one-directional, and users can only
upload information from LEADS to JustWare once per case. This means that all Enforcement
Section information documented in JustWare must be manually entered into LEADS. If
additional actions are taken by OLE staff on a case, the information must also be documented
manually in both systems. Despite improvements, OLE and the Enforcement Section have yet
to fully address data integrity issues within and between their two case management systems.

OIG sampled 144 of 196 cases processed March 16, 2010 (the effective date of higher level
Enforcement Section reviews) through March 25, 2011, which required enforcement action and
had gone through higher level reviews by Enforcement Section management. We compared
Enforcement Section files to OLE’s management system data to determine if information on
cases and their current status were consistent. Table 1 contains a summary of our tests.

Table 1. Case Management System Testing Summary
                                                            Information           Incorrect
                                                            Different Between     Disposition or
Region              Total Cases         Cases Tested
                                                            OLE and               Status Recorded
                                                            Enforcement Section
Alaska                      13                  13                  4                     1
Northeast                   33                  24                  0                     2
Northwest                   10                  8                   0                     0
Pacific Islands             27                  20                  4                     4
Southeast                   96                  66                  1                     8
Southwest                   17                  13                  3                     0
Total                      196                 144                  12                    15
Source: OIG Analysis

 




FINAL REPORT                                                                                        4
  DEPARTMENT OF COMMERCE
U.S.                                                                                    OFFICE OF INSPECTOR GENERAL

More than 7 percent of the tested cases did not have consistent information between the OLE
and Enforcement Section systems, and 11 percent of the cases did not have the correct
disposition or status recorded.1 In some cases, details of a subject’s probation that were noted
in the Enforcement Section’s system were missing from OLE’s LEADS files altogether. We also
found instances where Enforcement Section-generated information was omitted or where
incorrect documents were uploaded into LEADS. In several instances, the Enforcement Section
had marked the status of a case as “open” while OLE had the same case marked as “closed”—
or vice versa.

Due to a lack of system and business process controls in LEADS, conflicting or redundant
information can be entered, producing unreliable system reports. Some regional offices
provided an abundance of documentation, while others only used comment fields to provide
limited descriptions of case details. Some offices chose to document the status of a case in the
case management modules, while others preferred using the incident-tracking module. As a
result, we saw conflicting case status information within the same cases in LEADS. Also, as
noted earlier, our request for prior violation status reports produced varying results. Due to
these weaknesses, management and staff cannot obtain thorough and accurate case history or
case status information without physically reviewing individual files. LEADS also has no
automated reminder system or calendar tool allowing agents to track important due dates. This
forces staff to create discrete and unwieldy methods to manage their workflow and schedules.
Also missing from OLE’s current processes are reconciliation reviews of data, protocols for
populating records and system use, and a tracking system to monitor record-keeping timeliness.

If NOAA does not establish system controls and standard processes for LEADS, OLE
management decisions will continue to be susceptible to unreliable or inaccurate data. During
interviews, several OLE staff shared their frustration that some information extracted from
LEADS is unreliable. They also characterized the system as inefficient and cumbersome. NOAA
must implement controls and process improvements to ensure information is consistent,
accurate, and fully integrated between the separate case management systems. If OLE decides
to continue using LEADS, it must implement a policy on how to use the system and populate
data.

VI. OLE and Enforcement Section Policies and Procedures Manuals Need
    to Include a Consistent Method for Handling Prior Violation Information

Neither OLE’s nor the Enforcement Section’s manual provides a method for documenting,
storing, or obtaining prior violation information—an important factor when deciding a penalty
assessment or sanction. OLE and the Enforcement Section currently do not have processes for
gathering this information, identifying who will be responsible for the processes, or for ensuring
that the case management systems are capable of effectively and efficiently tracking prior
violations. Further, Enforcement Section and OLE staff could not provide consistent evidentiary
support for their reviews of alleged violators’ prior histories of noncompliance. Each person
responsible for data analysis had a different approach to obtaining histories of noncompliance
                                                            
1
  Percentages are based on a 95 percent confidence level. With +/-1.8 percent margin of error, we found that between 8 and
13 of the 196 case files did not have consistent information. Likewise, with +/-2.7 percent margin of error, we found that
between 11 and 20 of the 196 case files contained inconsistent disposition or status.


FINAL REPORT                                                                                                                 5
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

for alleged violators. Some used queries, while others relied on memory; query results varied
depending on query parameters and how staff entered information into OLE’s LEADS or the
Enforcement Section’s EMIS. Inadequate controls over the consistency of information in these
files and how information is analyzed restrict the Enforcement Section and OLE from acquiring
data and performing effective comparative analyses.

VII. OLE Staff Consistently Attend Fishery Management Council Meetings;
     Enforcement Section Participation Has Been Limited and Inconsistent

NOAA stated in its action plan that it would increase communications with the Fishery
Management Councils by ensuring availability of Enforcement Section attorneys at meetings,
particularly in the Northeast. We contacted OLE and Enforcement Section staff from four
offices and attended one council meeting where we also spoke to several of NOAA’s
enforcement partners from other agencies. We found that OLE staff consistently attended
council meetings; however, participation by the Enforcement Section was limited in two
regions. In those regions, OLE staff and Fishery Management Council representatives
recommended that Enforcement Section attorneys be more accessible to the public at the
meetings to help answer questions about penalties and sanctions. Some attorneys were
resistant to more significant involvement, citing limited resources and a reluctance to provide
legal advice before discussing issues more closely with colleagues. Considering NOAA’s
communication and outreach strategy, however, it appears that the Enforcement Section is
missing an opportunity to improve public relations and transparency. While most Fishery
Management Council meetings have Enforcement Section attorney representation, a more
involved presence with all the Council meetings would help NOAA provide information on
enforcement activities and also address specific issues of concern in the fishing community.

VIII. E-Hotline and ‘Complaints and Compliments’ Web Page Effectiveness
      Is Uncertain

NOAA has provided several tools for stakeholders and constituents to communicate potential
enforcement violations or complaints. One such tool, a 24-hour telephone enforcement hotline
that has been advertised on OLE’s website over the last several years, can be used to report
possible enforcement violations. OIG discussions with the company managing the calls indicate
that the hotline experiences regular use; however, use has not increased since our January 2010
review. The hotline also has not received any calls related to enforcement complaints since our
January 2010 review. The company that manages the calls said they would route any complaints
received to the applicable OLE regional office.

NOAA also created an Enforcement Complaint e-hotline (announced in September 2010) to
field complaints involving enforcement improprieties by OLE or enforcement attorneys.
According to a NOAA headquarters’ announcement, this e-mail account, which routes mail
directly to NOAA headquarters’ internal audit department rather than to OLE or the
Enforcement Section, aims to “provide fishermen and other members of the regulated
community a mechanism for raising issues about NOAA law enforcement without fear of
reprisal.” At the time of OIG’s review, the e-hotline had been operational for more than six


FINAL REPORT                                                                                      6
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL

months. NOAA received only one complaint regarding enforcement improprieties during this
time, despite numerous complaints being reported in the media during the same period. NOAA
should determine whether the e-hotline is delivering the intended results.

OLE also established a separate “Complaints and Compliments” web page to provide
information on how the public may offer feedback. This page, linked from OLE’s main web page,
directs the public to file complaints by writing or telephoning OLE’s Office of Professional
Responsibility. OLE also provides regional office supervisor’s direct contact information to the
general public. However, the website does not clearly explain to users that OLE’s process is
separate from the e-hotline on NOAA’s main website. Thus complainants may unknowingly
contact OLE, the very organization against which they are complaining, believing there are no
other options.

Having different methods of submitting complaints of enforcement improprieties is potentially
confusing for complainants, particularly since NOAA does not clearly distinguish between the
separate intake processes. These tools also are not easy to find on their respective websites
and may not be well-known to the public. Consequently, NOAA should clearly explain to the
regulated community a consistent process for communicating with NOAA and for filing
complaints concerning enforcement activities.

Conclusion

We have not provided further recommendations. This report represents an interim assessment
of NOAA’s progress in implementing our January 2010 recommendations. It is intended to
assist NOAA in effectively completing the action items it identified.

 




FINAL REPORT                                                                                    7
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


Summary of Department and OIG Comments 

OIG reviewed NOAA’s response and considered it in preparing this final report. OIG also
modified the draft report based on information provided by NOAA in subsequent
communications.

NOAA’s response indicates general concurrence with our findings. The response provides
additional updated information summarizing the steps NOAA has taken and plans to take to
address the challenges we identified and contains a clarification of its position on the placement
of a compliance liaison under the direct supervision of the OLE Special Agent in Charge in the
Northeast field office. We have no recommendations in this report; therefore, no action plan is
necessary. However, we expect to continue a dialogue with NOAA on its progress in achieving
the remaining action items.

 




FINAL REPORT                                                                                     8
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
On June 2, 2009, the Under Secretary of Commerce for Oceans and Atmosphere requested
that OIG review NOAA enforcement programs and operations as a result of concerns raised
by members of Congress. In January 2010, OIG issued OIG-19887, the first of three reports
that focused on NOAA’s management of enforcement operations. Two subsequent reports
were issued in July and September 2010 related to NOAA’s asset forfeiture fund and the
examination of specific complaints made by the fishing community, respectively.

This review evaluates NOAA’s efforts to improve its fisheries enforcement programs and
operations as stated in NOAA’s action plan of March 18, 2010, in response to the January 2010
report. Another OIG report focusing on the asset forfeiture fund’s management and civil
penalties collections process will follow at a later date.

Considering that efforts are still in progress, we established review objectives to provide an
interim assessment of NOAA's corrective actions and, when possible, determine the
effectiveness of actions already taken and identify constructive measures to adopt going
forward. Our review period was February through October 2011.

We conducted interviews with NOAA staff and external stakeholders and visited four regional
law enforcement offices. We reviewed established and proposed policies and processes and
analyzed evidence supporting NOAA's corrective actions. Further, we conducted a stratified
random sample from 196 cases requiring higher level review as a result of action taken by the
Enforcement Section. We did not include minor infractions in our sample.

Our work was performed in accordance with Quality Standards for Inspections (2005) issued
by the President’s Council on Integrity and Efficiency, and under authority of the Inspector
General Act of 1978, as amended, 5 U.S.C. App. 3, and Department Organization Order 10-13
(2006).




FINAL REPORT                                                                                     9
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


Appendix B: January 2010 Recommendations 

    1.	 Ensure that NOAA leadership regularly addresses and provides input to enforcement
        priorities and strategies with regional management, including formal reporting protocols.
        Given the complexities of NOAA’s mission and organization, the industry, and the
        current enforcement climate, its setting of enforcement priorities should involve
        integration and coordination with the headquarters fisheries management and science
        center elements, including the Assistant Administrator for NMFS—to whom OLE
        reports. Further, NOAA should consider reestablishing the position of ombudsman to
        serve as an interface with the regulated industry; such a position was created in May
        1999, but has remained vacant for several years and it is unclear within NOAA whether
        the position still exists.

    2.	 Determine whether NOAA should continue to approach fisheries enforcement from a
        criminal-investigative standpoint, and, if another approach is determined to be more
        appropriate, align OLE’s workforce composition accordingly. In particular, NOAA
        should determine whether the agency has an appropriate balance and alignment of
        uniformed enforcement officers/inspectors and criminal investigators, based on mission
        need.

    3.	 To promote greater transparency, consistency, and oversight in NOAA’s enforcement
        processes and operations, (a) ensure that the Enforcement Section develops,
        implements, and follows an internal operating procedures manual that includes
        comprehensive processes, methods, and justification for determining civil penalty
        assessments and fine settlement amounts; (b) institute a mechanism for higher-level
        review of civil penalty assessment determinations by Enforcement Section attorneys in
        advance (e.g., by panel established within NOAA headquarters); and (c) ensure that
        OLE’s National Enforcement Operations Manual is current, including providing sufficient
        policy guidance on regulatory and criminal authorities and procedures.

    4.	 Ensure follow-through on the Enforcement Section initiatives outlined in its December
        1, 2009, memorandum, intended to foster greater industry understanding of and
        compliance with complex fishing regulations. These include (a) reviewing and making
        appropriate revisions to applicable procedural regulations, civil penalty schedules, and
        associated guidance; and (b) developing an internal operating procedures manual.

    5.	 Ensure that the Enforcement Section and OLE develop, implement, and effectively utilize
        reliable, integrated case management information systems.

 




FINAL REPORT                                                                                       10
  DEPARTMENT OF COMMERCE
U.S.                                                                         OFFICE OF INSPECTOR GENERAL


Appendix C: NOAA Action Items 

                              (As of October 6, 2011)
 

                                                                          NOAA
                        NOAA Action                                                       Status*
                                                                          Office
Create Enforcement Section internal operating procedures               Enforcement      Implemented
manual (see section I)                                                 Section
                                                                       Enforcement      Implemented
Perform periodic reviews of the Enforcement Section manual
                                                                       Section
Implement higher level reviews of Enforcement Section                  Enforcement      Implemented
enforcement actions (see section I)                                    Section
                                                                       Enforcement      Implemented
Revise existing NOAA fisheries enforcement penalty schedules
                                                                       Section
                                                                       Enforcement      Implemented
Revise Enforcement Section penalty policies
                                                                       Section
                                                                       Enforcement      Implemented
Amend 15 C.F.R., part 904
                                                                       Section
Perform periodic reviews of the OLE manual                             OLE              Implemented
                                                                                        Not
Develop an outreach strategy                                           OLE
                                                                                        completed
                                                                       OLE /            Implemented
    •   Direct resources to improve communications on
                                                                       Enforcement
        enforcement issues
                                                                       Section
                                                                       OLE /            Implemented
    •   Facilitate public access to regulatory compliance criteria     Enforcement
                                                                       Section
    •   Utilize additional compliance assistance measures              OLE              Implemented
                                                                       OLE /            Implemented
    •   Hold a National Enforcement Summit                             Enforcement
                                                                       Section
                                                                       OLE /            Implemented
    •   Increase communications with Fishery Management
                                                                       Enforcement
        Councils (see section VII)
                                                                       Section
                                                                       OLE /            Implemented
    •   Provide public access to charging information                  Enforcement
                                                                       Section
    •   Initiate dockside communications                               OLE              Implemented
    •   Establish a complaint hotline (e-hotline) (see section VIII)   OLE              Implemented
    •   Hire a compliance liaison (see section III)                    OLE              Implemented
    •   Hire an outreach coordinator (see section III)                 OLE              Implemented
    •   Evaluate other tools for regular communications with           OLE              Implemented
        communities
                                                                       OLE              Not
    •   Establish a Tiger Team
                                                                                        completed
                                                                       OLE              Not
    •   Have a third party review performance
                                                                                        completed



FINAL REPORT                                                                                          11
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

    •   Establish ‘Ask an Agent’ and ‘Frequently Asked         OLE              Not
        Questions’ portal (see section VIII)                                    completed**
                                                               OLE              Not
    •   Establish a fisheries enforcement e-mail listserv
                                                                                completed**
                                                               OLE              Not
    •   Utilize social media tools
                                                                                completed**
                                                               OLE              Not
    •   Examine other cooperative research programs
                                                                                completed**
    •   Train NOAA enforcers in tools to defuse difficult      OLE              Not
        situations                                                              completed**
                                                               Enforcement      Abandoned
    •   Begin Northeast fishermen’s forums
                                                               Section
   • Reinstate the position of ombudsman (see section III)     OLE              Abandoned
Develop draft regional priorities plan (see section II)        OLE              Completed
                                                               OLE              Completed
Develop draft national priorities plan (see section II)
                                                               OLE              Not
Finalize implementation of priorities plan (see section II)
                                                                                completed
Update OLE internal operating procedures manual (see section   OLE              Not
VI)                                                                             completed
Institute OLE hiring freeze                                    OLE              Implemented
Formulate a plan to review the NMFS OLE staffing and           OLE              Implemented
procedures
Prepare a workforce analysis plan                              OLE              Implemented
Conduct the workforce analysis                                 OLE              Implemented
Develop recommendations from the workforce analysis plan       OLE              Implemented
                                                                                Not
Implement the workforce analysis plan                          OLE
                                                                                completed
                                                                                Not
Develop 1–2-year action plan                                   OLE
                                                                                completed
                                                               OLE /
Develop a strategy and schedule to improve management
                                                               Enforcement      Implemented
information systems (see section V)
                                                               Section
                                                               OLE /
Prepare a monthly combined OLE and Enforcement Section         Enforcement
                                                                                Implemented
enforcement report                                             Section

                                                               OLE /
Provide Enforcement Section case outcome information to OLE    Enforcement
                                                                                Implemented
within 5 business days                                         Section

                                                               Enforcement
Replace Enforcement Section’s case management system (see
                                                               Section          Implemented
section V)
                                                               OLE /
Configure JustWare to fit Enforcement Section case tracking    Enforcement
                                                                                Implemented
requirements                                                   Section




FINAL REPORT                                                                                  12
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

                                                                             Enforcement            Implemented
Map system data                                                              Section

                                                                             Enforcement            Implemented
Obtain certification and accreditation                                       Section

                                                                             Enforcement            Not
Configure JustWare for docket reviews, sanction assessments,
and case charging                                                            Section                completed


* The status of each action item listed in the table was confirmed through OIG observations, document reviews,
and discussions with NOAA officials. Only select components of the action plan are referenced in the body of the
report.
** Listed   as a possible action item and not established as a firm commitment by NOAA officials.




FINAL REPORT                                                                                                      13
  DEPARTMENT OF COMMERCE
U.S.                                                                                               OFFICE OF INSPECTOR GENERAL


Appendix D: Response to OIG’s Draft Report

                                                                            UNITED STATES DEPARTME NT OF COMMERCE
                                                                            Naelonel Do-nie end Abno • pherlc Adn>l n latreelon
                                                                            NATlCJNAL MARINE FISHERIES SERVICE
                                                                            131 S t.ast-Wesc H.ghwoy
                                                                            S dver Spr<ng , M e -y!end 20910
                                                                            TH E DIRECTOR




               MEMORANDUM FOR:                  Ann Eilers                                  JAN 18 2012
                                                Principal Assistant Inspector General
                                                Office of Audit and Evaluation
                                                Office of Inspector General. U.S. Department of Commerce

               FROM:


               SUBJ ECT:                        Comments on the Draft Report Entitled, " Follow-up Review of
                                                NOAA Fisheries Enforcement Programs and Operations "



               This memorandum responds to the Draft report from the Office of Inspector General (010),
               entitled "Follow-up Review of NOAA Fisheries Enforce ment Programs and Operations," issued
               on December 9. 20 11 . In a letter accompanying that report, the OJG asked the National Oceanic
               and Atmospheric Administration (NOAA) to "submit any comments to the draft report by
               January 18. 20 12.'' and that these comments would be considered by the 010 and attached as an
               appendix to the final report.

               Overall. NOAA greatly appreciates the report's recognition that NOAA has "taken some positive
               steps in addressing challenges identified in our reviews." and that "NOAA has made progress in
               completing many key action plan items." The draft report acknowledges many of the important
               changes that NOAA has made since the OlG issued its initial report in January 2010, including:
               (I) requiring high level review of all proposed charges in enforcement cases; (2) finalizing a rule
               placing the burden ofjustifying a civil penalty at an administrative hearing on NOAA; (3)
               issuing a new national penalty policy; (4) creating a system that documents attorney notes and
               recommendations in all enforcement cases; and (5) developing a comprehensive Enforcement
               Section 1 policy and procedures manual.

               NOAA also recognizes and agrees with the report's conclusion that NOAA is still working to
               complete certain action items. For example, the program has taken several major steps on the
               difficult and long path of developing and implementing a plan to change the composition of its
               workforce and improve its ability to meet both its civil and criminal enforcement missions in the
               coming years. Changing the composition of the workforce to better align with enforcement
               priorities and regional needs will understandably take time. and we continue to work di ligently
               on this issue. These and other actions that the Office of Law Enforcement (OLE) has undertaken
               over the last 2 years reflect the program's commitment to designing and implementing
               widespread changes to its policies and procedures, in response to prior OIG findings and related
               guidance from NOAA leadership. On the basis of these efforts and the directi on of current work,


               ' NOAA 's General Counsel for Law Enforcement (G CEL), has been reorganized and is now called the Enforcement
               Section.


                                                                                     TH<:; ASSISTANT AOMlNIS TAATOR
                                                                                               FOR FISHERIES
        @ Primed on Recycled Poper



FINAL REPORT                                                                                                                      14
  DEPARTMENT OF COMMERCE
U.S.                                                                                    OFFICE OF INSPECTOR GENERAL





               NOAA believes that OLE is making promising and lasting changes in its business processes and
               management practices that have substantially improved the enforcement program's functions and
               perfom1ance.

               NOAA values the contribution that the OIG has made to identifying opportunities to improve
               this important program. To complement the record offered by the OIG's draft report, NOAA
               provides the following detailed comments on each of the report' s findings:

               Finding I· NOAA made progress in completing many key action plan items

               NOAA appreciates the report' s recognition that NOAA has made considerable progress on a
               wide range of action items, and its acknowledgement that NOAA stated that it would consider
               several of the items listed as action items in Appendix C, but did not commit to implementing
               them. NOAA also notes that the binary labeling of NOAA' s results ("implemented" or "not
               completed") does not recognize that some items may be on-going in nature, such as
               implementing an outreach strategy or using social media tools. In these and other areas NOAA
               has taken a number of significant steps, but by their nature these action items will never be
               "completed." Among the more complex and challenging of the remaining actions that have yet
               to be completed, such as finali zing a national priorities plan and implementing a national
               workforce plan, NOAA has made considerable progress to date and is on a solid path toward
               successful implementation.

               Finding 2: Regional and national priorities for OLE have not been finalized

               NOAA began working on national and regional enforcement priorities during the NOAA
               National Enforcement Summit in August 2010. Following the Summit, OLE solicited further
               recommendations for priorities by reaching out to fishery management councils, interstate
               commissions and other stakeholders, and inviting comments to be sent to the Special Agents in
               Charge of NOAA's six enforcement divisions or to NOAA' s Office of General Counsel for
               Enforcement and Litigation. On November 8, 20 II , NOAA publicly released a draft of its
               enforcement priorities and invited the public to submit comments through January 9, 2012.
               NOAA will consider these comments and anticipates releasing its final regional and national
               priorities this March.

               Finding 3: NOAA 's placement ofthe compliance liaison within the Northeast Region raises
               concerns

               NOAA's point of view is that the primary purpose of the compliance liaison is to engage directly
               with fisherman, on the docks and in various public forums, to proactively address compliance
               and law enforcement issues. NOAA believes that the best place to do that is from within OLE,
               and that this placement provides a consistent, unified approach towards handling related
               enforcement and compliance issues. This business model is consistent with other national
               enforcement programs, such as the Environmental Protection Agency's "Office of Enforcement
               and Compliance Assurance," which pursues enforcement and provides compliance assistance by
               utilizing a variety of enforcement and compliance strategies. Given this design, the compliance
               liaison's function fits squarely within OLE's mandate to work directly and proactively with the
               regulated community.



                                                                                                               2




FINAL REPORT                                                                                                       15
  DEPARTMENT OF COMMERCE
U.S.                                                                                      OFFICE OF INSPECTOR GENERAL





               With respect to managing complaints against the Agency, NOAA notes that stakeholders can
               currently use a variety of means to lodge complaints and participate in the management process
               and avail themselves of opportlinities for input, including: (a) filing complaints with the OLE E­
               Hotline; (b) filing complaints on the OLE "complaints and compliments" web page; (c)
               providing input at meetings of the Regional Fishery Management Councils; (d) providing input
               to the Marin'e Fishery Advisory Committee and Atlantic highly migratory species advisory
               panels; (e) providing comments on Federal Register notices; and (f) participating in NMFS­
               administered appeals processes. While perceptions related to the compliance liaison role may
               vary by region, NOAA expects that the numerous mechanisms that can be used to lodge
               complaints, combined with the proactive engagement with the community in the region, will
               over time ensure that the compliance liaison function can be effective and valuable in the
               Northeast region and elsewhere.

               Finding 4: NOAA 's worfdorce analysis is one year behind schedule

               The Office of Law Enforcement (OLE) hac;; taken the OJG recommendations to evaluate staffing
               needs very seriously and has begun implementing an appropriate realignment of personnel that
               will allow OLE to meet both its civil and criminal enforcement missions. The realignment
               process began with the January 20 I 0 freeze on hiring criminal investigators that still remains in
               effect. Since that time, OLE has used resources gained from attrition to increase the number of
               enforcement officers as a means of improving and expanding compliance eflorts. At the time of
               the OIG review in June of2009, the OLE workforce comprised 149 special agents and 15
               enforc.ement officers. OLE's workforce currently has 114 special agents and 21 enforcement
               oflicers, with an additional ten enforcement officers anticipated to be hired in FY 2012. Notably,
               an Assistant Director position was also converted from a special agent position to a non-sworn
               billet.

               OLE's increase in enforcement officers is an initial step in a strategic re-alignment of personnel
               classifications within OLE. This re-alignment represents a significant cultural and operational
               change for OLE, as well as its enforcement partners and other stakeholders. The implementation
               strategy considers this significant paradigm shift and analyzes strategies for retention to ensure
               that OLE is able to meet its missions and mandates in the coming years.
               OLE is developing a draft staffing and deployment plan, as well as a draft competency model
               and training plan. In developing these plans, OLE is using a team approach, utilizing the NOAA
               Workforce Management Office and other Federal partners to review OLE's missions and goals,
               minimum position qualifications, training requirements, and focus on compliance assistance.
               This effort has required a comprehensive review of current and anticipated work tlow,
               workloads, staffing, position classifications, and training requirements.
               Once the draft workforce plans are complete, OLE will use them to inform and develop a near
               term implementation plan, prioritizing vacancies to be filled to achieve an appropriate personnel
               balance. OLE expects to complete the implementation plan by the end of the 3rd quarter of FY
               2012.




                                                                                                                   3




FINAL REPORT                                                                                                           16
  DEPARTMENT OF COMMERCE
U.S.                                                                                      OFFICE OF INSPECTOR GENERAL





               Finding 5: Enforcement case management system data inlef:rily issues have not heen re.mlved

               The draft report correctly notes that on April I, 2011, the Enforcement Section (formerly GCEL)
               began using a new case management system, Justware. OLE's new case management system,
               LEADS II, is still under construction, but OLE anticipates that LEADS II will be fielded later
               this calendar year. As part of that deployment, the Enforcement Section and OLE will work with
               their respective vendors to develop a bi-directional data exchange to operate between the two
               systems. This bi-directional data exchange will significantly reduce the need tor manual
               updating of the systems and should significantly reduce the data integrity issues identified in the
               report. Although the roll out of LEADS IT is expected this calendar year, all software upgrades
               are currently on hold pending completion of corrective security measures in response to the
               findings of the OIG 20 II audit of the NMFS OLE Wide Area Network (WAN).
               Finding 6: OLE and GCEL policies and procedures manuals need 10 include a consistent
               method.for handling prior violation information
               Issuing a written policy to ensure a consistent approach for handling prior violation information
               is a new and positive recommendation. The Enforcement Section will work with OLE to create
               a policy for how to determine and record the priors of a respondent and add the newly developed
               policy to their respective practice manuals. Importantly, this issue should be resolved when
               OLE's new case management system, LEADS II, is brought on-line, and begins a bi-directional
               data exchan.g e with Justware. As described above, although the roll out of LEADS II is expected
               this calendar year, all software upgrades are on hold pending completion of corrective security
               measures.
               Finding 7: OLE staff consistently attend Fishety Management Council meetings; Enforcement
               Section participation was limited and inconsistent
               NOAA believes that this issue was recently resolved and we expect to have coverage by
               enforcement attorneys at all Council meetings going forward. Over the last 2 years, Enforcement
               Section attorneys have consistently attended council meetings with enforcement agenda items for
               the South Atlantic Fishery Management Council (FMC), Gulf of Mexico FMC, Caribbean FMC,
               North Pacific FMC, and Western Pacific FMC. In Novem ber 2011, the Enforcement Section
               reassigned attorneys to ensure attendance at all New England FMC and Mid-Atlantic FMC
               meetings. Collectively, this level of attendance represents a significant effort given the relatively
               small size and diverse responsibilities of the available staff. The Enforcement Section currently
               has eleven l ine attorneys responsible for enforcement across the entire country. and there are
               eight Fishery Management Councils which hold 38 or more formal council meetings each year,
               along with a number of additional committee and subcommittee meetings in changing venues
               throughout the country.
               Finding 8: £ -Hotline and 'Complaints and Compliments ' web page effectiveness is uncertain

               NOAA appreciates the OIG's observation that the e-hotline has received only one complaint in
               its first 6 months of operation, and that additional effort should be taken to determine whether
               this level of use indicates that the actual volume of complaints is low or that the hotline is not
               being used to register complaints. While NOAA has anecdotal information to suggest that



                                                                                                                    4




FINAL REPORT                                                                                                            17
  DEPARTMENT OF COMMERCE
U.S.                                                                                     OFFICE OF INSPECTOR GENERAL





                complaints are indeed low, additional research needs to be conducted before either of the two
                conclusions can be established.

               · With regard to the report' s observation that the OLE £-Hotline and ''complaints and
                 compliments" web page are not well explained and create confusion, NOAA agrees with the
                 report's recommendation that NOAA should clearly explain a consistent process for filing
                 complaints concerning enforcement activities. NOAA has modified the OLE website to better
                 differentiate between the two complaint websites, and make it clear that the E-Hotline is tied
                 directly to NOAA.




                                                                                                                  5




FINAL REPORT                                                                                                          18
